U.S. Department of Justice
Office of the Solicitor General

The Acting Solicitor General

Washington, D.C. 20530

October 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Husayn, No. 20-827
Dear Mr. Harris:
This case arises out of respondents’ application under 28 U.S.C. 1782 to compel discovery
from two former Central Intelligence Agency (CIA) contractors for use in a Polish prosecutor’s
investigation into allegations that respondent Zayn Husayn (a.k.a. Abu Zubaydah) was mistreated
at an alleged CIA detention facility in Poland. During oral argument, several Justices asked
whether and under what conditions Abu Zubaydah himself could provide testimony for use in the
Polish investigation and requested a written response from the United States. Tr. 54, 71-77. This
letter responds to those questions.
Abu Zubaydah’s testimony has not been a subject of this litigation, and it would not resolve
the parties’ dispute over respondents’ Section 1782 application. In 2015, moreover, the United
States rejected a request from Polish prosecutors to facilitate Abu Zubaydah’s testimony under the
countries’ bilateral mutual legal-assistance treaty. Nonetheless, the government would permit
Abu Zubaydah, upon his request, to send a declaration that could then be transmitted to the Polish
investigation. Like other communications from similarly situated detainees, such a declaration
would be subject to a review that could result in the redaction of information that could prejudice
the security interests of the United States.
1. Abu Zubaydah is being detained under the authority conferred by the Authorization for
Use of Military Force (AUMF) against the “nations, organizations, or persons” that “planned,
authorized, committed, or aided the terrorist attacks that occurred on September 11, 2001, or
harbored such organizations or persons.” Pub. L. No. 107-40, § 2(a), 115 Stat. 224 (2001).
Congress has “affirm[ed]” that the AUMF authorizes the law-of-war detention of persons who
were “part of or substantially supported al-Qaeda” or “associated forces” until “the end of the
hostilities authorized by” the AUMF. National Defense Authorization Act for Fiscal Year 2012,
Pub. L. No. 112-81, § 1021(a), (b)(2), and (c)(1), 125 Stat. 1562. The legality of Abu Zubaydah’s
detention is subject to review in his pending habeas case, Husayn v. Austin, No. 08-cv-1360
(D.D.C.). In addition, the Executive Branch conducts periodic reviews to determine whether his
detention remains “necessary to protect against a significant threat to the security of the United

Page 2
States.” Exec. Order No. 13,567, § 2, 3 C.F.R. 227 (2011 Comp.); see Periodic Review Secretariat, U.S. Dep’t of Def., Subsequent Full Review, https://go.usa.gov/xMxnZ.
2. Abu Zubaydah’s communications are governed by an order in his habeas case and by
Department of Defense procedures that reflect his status as a detainee held pursuant to the AUMF
and the law of war.
The district court hearing Abu Zubaydah’s habeas case has entered an order governing
access to, and communications with, Abu Zubaydah. See Doc. 78, at 20-31, Husayn, supra (Jan.
9, 2009) (amended order in force). The order defines “[l]egal mail” as documents relating to the
habeas case that are transmitted between Abu Zubaydah and his habeas counsel. Id. § 2, ¶¶ 4, 8.
Legal mail sent by Abu Zubaydah is transmitted through a designated Privilege Team and must be
treated as containing classified information pending a classification review. Id. § 2, ¶¶ 14(a)-(d),
21-27. Materials obtained directly from Abu Zubaydah during in-person meetings are similarly
treated as classified pending classification review. Id. § 2, ¶¶ 17-19, 21-27. The public docket
in the habeas case includes several declarations from Abu Zubaydah that have been reviewed for
classified material, including a declaration describing his treatment in CIA custody. Doc. 405, at
54-74, Husayn, supra (Sept. 16, 2016) (redacted version of declaration dated July 23, 2009).
The district court’s order further provides that if Abu Zubaydah sends materials unrelated
to the habeas proceeding to his habeas counsel, or if counsel obtains from Abu Zubaydah
correspondence directed to other individuals, “counsel shall return” such materials to military
personnel “for processing according to the standard operating procedures for detainee nonlegal
mail.” Doc. 78, § 2, ¶¶ 14(f) and 20, Husayn, supra. Those standard operating procedures were
established by the Department of Defense. The Department’s policy is to ensure humane
treatment of detainees in its custody under the law of war. Department of Def., Directive No.
2310.01E, § 3.b (Aug. 19, 2014), https://go.usa.gov/xM7Gz. That includes affording detainees
“appropriate contacts with the outside world.” Id. § 3.b(1)(b). Those contacts, however, remain
subject to review and redaction for security concerns. See, e.g., Department of Def., Review of
Department Compliance with President’s Executive Order on Detainee Conditions of Confinement
37 (2009). Such screening of detainees’ correspondence is firmly grounded in the law of war.
The Third Geneva Convention, for example, recognizes “[t]he Detaining Power’s general right to
conduct censorship” of “all communications sent to or by” prisoners of war and to excise
information that it finds “prejudicial” to its security. Office of Gen. Counsel, Department of Def.,
Law of War Manual § 9.20.6, at 597-598 (Dec. 2016), https://go.usa.gov/xMAEb; see Geneva
Convention Relative to the Treatment of Prisoners of War, arts. 71, 76, Aug. 12, 1949, 6 U.S.T.
3316, 3370, 3376.*

* These provisions of the Geneva Conventions illustrate pertinent law-of-war principles,
but they do not directly apply to the United States’ conflict with al-Qaeda and associated forces.
Among other things, those non-state entities are not High Contracting Parties of the Geneva
Conventions. See Hamdan v. Rumsfeld, 548 U.S. 557, 628-630 (2006) (noting without resolving
the government’s position on the applicability of provisions of the Geneva Conventions other than
Common Article 3).

Page 3
3. As noted above, Abu Zubaydah’s testimony was one of the forms of evidence requested
by Polish prosecutors under the Treaty Between the United States of America and the Republic of
Poland on Mutual Legal Assistance in Criminal Matters (MLAT), U.S.-Pol., July 10, 1996,
T.I.A.S. No. 99-917.1. In 2011, prosecutors asked the United States to facilitate Abu Zubaydah’s
testimony about his allegation, made through counsel, that he was detained and mistreated in
Poland. See C.A. E.R. 632. Polish authorities have publicly represented that they discussed that
MLAT request with their United States counterparts as a part of broader “bilateral consultations”
and in multiple letters between 2012 and 2015. Id. at 633. In 2015, the United States denied the
request under the MLAT’s exception for matters implicating national security or other essential
interests (Article 3(1)(c)). See ibid.; see also U.S. Br. 8-9, 45-46.
Although the United States declined the Polish prosecutors’ request to facilitate Abu
Zubaydah’s testimony, and although the nonlegal mail process available to Abu Zubaydah is
typically limited to communications with family members, the Department of Defense has
informed this Office that under the circumstances presented here it would allow Abu Zubaydah,
upon his request, to use such a process to send a declaration that could be transmitted to Polish
prosecutors. Like other communications from similarly situated detainees, such a declaration
would be subject to a security review. As illustrated by Abu Zubaydah’s declaration in his habeas
case, that review would not prevent him from describing his treatment while in CIA custody, but
it could result in the redaction of information that could prejudice the security of the United States.
That national-security judgment is necessarily context-specific, and the scope of the necessary
redactions would thus depend on the content of the declaration.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-0827
USA
HUSAYN, ZAYN AL-ABIDIN MUHAMMAD, AKA
ABU ZUBAYDAH, ET AL.

ISABEL ABISLAIMAN
252 CALLE CRUZ
SUITE 201
SAN JUAN, PR 00901
787-525-6242
ABISLAIMAN@GMAIL.COM
BAHER AZMY
CENTER FOR CONSTITUTIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6464
BAZMY@CCRJUSTICE.ORG
ALEXA BORDNER
BAKERHOSTETLER
45 ROCKEFELLER PLAZA
NEW YORK , NY 10111-0100
212-589-4298
ABORDNER@BAKERLAW.COM
DAVID J. BUTLER
TAFT STETTINIUS & HOLLISTER LLP
65 E. STATE STREET,
SUITE 1000
COLUMBUS, OH 43206
614-334-6167
DBUTLER@TAFTLAW.COM

CARMEN K. CHEUNG
CENTER FOR JUSTICE & ACCOUNTABILITY
ONE HALLIDIE PLAZA
SUITE 750
SAN FRANCISCO , CA 94102
415-544-0444
CCHEUNG@CJA.ORG
JOSHUA COLANGELO-BRYAN
DORSEY & WHITNEY LLP
51 WEST 52ND STREET
NEW YORK, NY 10019-6119
212-415-9234
COLANGELO-JOSHUA@DORSEY.COM
646-417-6563(Fax)
TIMOTHY J. DROSKE
DORSEY & WHITNEY LLP
50 SOUTH SIXTH STREET
SUITE 1500
MINNEAPOLIS, MN 55402
612-340-2600
DROSKE.TIME@DORSEY.COM
TIMOTHY K FORD
MACDONALD, HOAGUE, & BAYLESS
1500 HOGE BUILDING
705 SECOND AVENUE
SEATTLE, WA 98104
206-622-1604
TIMF@MHB.COM
JOHN S. FRIEND
FRIEND LAW, PSC
P.O. BOX 21035
LOUISVILLE, KY 40221
JOHNNY@FRIEND-LAWKY.COM

HANNAH GARRY
DIRECTOR OF INTERNATIONAL HUMAN
RIGHTS CLINIC
699 EXPOSITION BLVD.
LOS ANGELES, CA 90089
HGARRY@LAW.USC.EDU
DANIEL M. GREENFIELD
SUPREME COURT AND APPELLATE COUNSEL
375 EAST CHICAGO AVENUE
CHICAGO, IL 60611
312-503-8538
DANIELGREENFIELD@LAW.NORTHWESTERN.EDU
312-503-0891(Fax)
CARMEN CHEUNG KA-MAN
CENTER FOR JUSTICE & ACCOUNTABILITY
(CJA)
ONE HALLIDIE PLAZA
SUITE 750
SAN FRANCISCO, CA 94102
CCHEUNG@CJA.ORG
DAVID F. KLEIN
PILLSBURY WINTHROP SHAW PITTMAN LLP
1200 17TH STREET, NW
WASHINGTON, DC 20032
DAVID.KLEIN@PILLSBURYLAW.COM
ERIC L. LEWIS
LEWIS BAACH KAUFMANN MIDDLEMISS
PLLC
1101 NEW YORK AVE., NW
SUITE 1000
WASHINGTON, DC 20005
202-833-8900
ERIC.LEWIS@LBKMLAW.COM

MICHAEL LINHORST
CLINICAL LECTURER | CRAIG NEWMARK
FELLOW
MEDIA FREEDOM & INFORMATION ACCESS
CLINIC
YALE LAW SCHOOL
352 GREENE ST.
NEW HAVEN, CT 06511
315-256-1602
MICHAEL.LINHORST@YALE.EDU
WENDY LIU
PUBLIC CITIZEN LITIGATION GROUP
1600 20TH STREET NW
WASHINGTON, DC 20009
202-588-1000
WLIU@CITIZEN.ORG
LAWRENCE S. LUSTBERG
GIBBONS P.C.
ONE GATEWAY CENTER
NEWARK, NJ 07102
973-596-4731
LLUSTBERG@GIBBONSLAW.COM
HOPE R. METCALF
SCHELL CENTER FOR INTERNATIONAL
HUMAN RIGHTS
YALE LAW SCHOOL
127 WALL STREET
NEW HAVEN, CT 06511
203-432-9404
HOPE.METCALF@YALE.EDU
JERRY J. MOBERG
MOBERG RATHBONE KEARNS, P.S.
124 3RD AVE, S.W.
EPHRATA, WA 98823-2619
JMOBERG@MRKLAWGROUP.COM

ANN M. MURPHY
PROFESSOR
GONZAGA UNIVERSITY SCHOOL OF LAW
721 NORTH CINCINNATI STREET
P.O BOX 3528
SPOKANE, WA 99220-3528
509-313-3735
MURPHYA@GONZAGA.EDU
MATTHEW R. NICELY
AKIN GUMP STRAUSS HAUER &FELD LLP
ROBERT S. STRAUSS TOWER
2001 K STREET, N.W.
WASHINGTON, DC 20006-1037
202-887-4046
MNICELY@AKINGUMP.COM
202-887-4288(Fax)
TARA J. PLOCHOCKI
LEWIS BAACH KAUFMANN MIDDLEMISS
PLLC
1101 NEW YORK AVENUE, NW
SUITE 1000
WASHINGTON, DC 20005
202-659-7217
TARA.PLOCHOCKI@LBKMLAW.COM
MICHAEL K. ROBERTSON
TAFT/
65 E. STATE STREET
SUITE 1000
COLUMBUS, OH 43215
614-221-2838
MROBERTSON@TAFTLAW.COM
614-221-2007(Fax)

DAVID A. SCHULZ
MEDIA FREEDOM AND INFORMATION
ACCESS CLINIC
127 WALL STREET
NEW HAVEN, CT 06511
203-432-4992
DAVID.SCHULZ@YALE.EDU
GERSON H. SMOGER
SMOGER & ASSOCIATES, P.C.
13250 BRANCH VIEW LANE
DALLAS, TX 75234
972-243-5297
GERSON@TEXASINJURYLAW.COM
STEVEN S. SPARLING
KRAMER LEVIN
1177 AVENUE OF THE AMERICAS
NEW YORK , NY 10036
212-715-7736
SSPARLING@KRAMERLEVIN.COM
212-715-8199(Fax)
CHRISTOPHER TOMPKINS
BETTS, PATTERSON & MINES, P.S.
701 PIKE STREET
SUITE 1400
SEATTLE, WA 98101
CTOMPKINS@BPMLAW.COM
MEAGHAN VERGOW
O'MELVENY & MYERS LLP
1625 EYE STREET, N.W.
WASHINGTON, DC 20006-4001
202-383-5300
MVERGOW@OMM.COM

RICHARD WIEBE
LAW OFFICE OF RICHARD R. WIEBE
44 MONTGOMERY STREET
SUITE 650
SAN FRANCISCO,, CA 94104
415-433-3200
WIEBE@PACBELL.NET

